                    NATIONAL ENDOWMENT FOR THE ARTS
                    OFFICE OF INSPECTOR GENERAL




                       LIMITED SCOPE AUDIT REPORT

                                              ON SELECTED
                                             NEA GRANTS TO

                               WISCONSIN ARTS BOARD
                                                MADISON, WI

                                         REPORT NO. LS-09-02
                                            JUNE 15, 2009




                                     REPORT RELEASE RESTRICTION
In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on the National
Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly available with the approval
of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be considered before
this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those intended without
prior consultation with the NEA Office of Inspector General regarding its applicability.



                                             INTRODUCTION

                                                            1
BACKGROUND
The Wisconsin Arts Board (Board) is a state agency, which nurtures creativity, cultivates expression,
promotes the arts, supports the arts in education, stimulates community economic development and serves
as resource for people of every culture and heritage. The Board’s headquarters is located in Madison,
Wisconsin.


OBJECTIVE AND SCOPE
The objective of this limited scope audit was to determine whether:

       The grantee fulfilled the financial and compliance requirements as set forth in the grant awards;
       The total project costs claimed under the grants were reasonable, allocable and allowable;
       The required match was met on NEA grant funds; and
       The objectives for which the grants were awarded were actually accomplished.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and other
auditing procedures that were considered necessary under the circumstances. The “Standards” require that
we obtain sufficient, competent, and relevant evidence to afford a reasonable basis for our findings and
conclusions.

During the period under review, the Board had nine National Endowment for the Arts (NEA) grants active
with awards totaling $2,624,800 (see Appendix A). Our audit was limited to those five grants in which
NEA funds had been drawn down, costs had been reported, and were the most recently closed. The NEA is
the federal oversight agency for the Board.


PRIOR AUDIT COVERAGE
During the past five years, the NEA Office of Inspector General (OIG) has not issued any audit reports on
Federal grants awarded to the Board. However, the Board was included in the State of Wisconsin’s Single
Audit Report (OMB Circular A-133) for year ended June 30, 2007. None of the findings indicated in the
State’s A-133 audit report were applicable to the Board. The auditors, the Legislative Audit Bureau (LAB),
also performed an independent comprehensive audit on the State’s financial statements for the year ended
June 30, 2007. The independent audit resulted in an unqualified (clean) opinion on the financial
statements. In May 2008, the LAB issued a letter report to the Board based on audit work it completed
relating to the State of Wisconsin’s regulations. LAB identified several significant concerns with the
Board’s fiscal controls. The major factor was that key fiscal responsibilities are primarily completed by
one fiscal person with limited management oversight. LAB indicated that the Board had taken some steps
to address its concerns; however, it encouraged the Board to implement all of the improvements that it had
recommended in its separate management letter. We agree with LAB’s concerns and believe that follow up
of these concerns should remain with LAB.

                                                     2
                                           RESULTS OF AUDIT
Our audit concluded that the grant objectives were met for the completed grants. However, our review of
the documentation provided indicated that the Board’s financial management system did not adequately
track some of the costs reported. Although we found that the Board did maintain personnel activity reports,
the supporting documentation was not always provided at the time of the audit. As a result of insufficient
documentation, costs were questioned for two of the grants where a potential refund may be due.
Additionally, the Board did not file final reports timely.


FINANCIAL MANAGEMENT
As indicated above, the Board’s financial management system did not adequately track some of the costs
reported. In addition, although the Board did not claim any in-kind costs on the final Financial Status
Reports, the approved grant budgets indicate that the Board would be incurring in-kind costs and we did
not see any documentation in place to claim such costs. The NEA’s General Terms and Conditions for
Grants and Cooperative Agreements to Organizations (General Terms) has financial requirements or refers
to the Financial Management Guide for State & Local Governments, which NEA provides to each
applicable grantee. The General Terms and the Guide state in part:

   For every employee whose salary is charged to an NEA grant, as a whole or in part, personnel activity reports must
   be maintained to account for all compensated time spent on other activities.

   Recipients must have accounting structures that provide accurate and complete information about all financial
   transactions related to each Federally-supported project.

   The grantee must maintain financial records, supporting documentation (such as cancelled checks, invoices,
   contracts, travel reports, donor letters, in-kind contribution reports, and personnel activity reports), statistical
   records, and all other records pertinent to an award according to the provisions outlined in OMB Circular A-
   110, Section 53 or the “Common Rule,” Section 1157.42, as applicable.

   According to OMB Circular A-102, Subpart C, the values placed on third party contributions for cost sharing or
   matching purposes will conform to the rules in the succeeding sections of this part. Those sections discuss the
   valuation of donated services, the valuation of donated supplies and loaned equipment or space, and the
   valuation of donated equipment, buildings, and land.

A description of our findings for each of the grants is indicated as follows:

Grant Nos. 05-6100-2020 and 06-6100-2010. We spent several hours verifying the costs claimed but
could not get all of the project cost categories to reconcile nor could we get all of the numbers to add up
to either the final Financial Status Reports (FSR) or to the Final Descriptive Reports (FDR). Work
papers showing how the amounts were compiled for the reports were not maintained by the grantee.

We believe the Board still meets the matching requirement under both of the grants since both of the grants
were well overmatched based on the amounts that we reviewed.



                                                             3
Grant No. 05-5500-7020. None of the grant costs were adequately documented during the audit. However,
subsequent to the audit, the Board provided a list of expenditures paid for by the other consortium member,
which documented that there were enough costs to meet the matching requirements of the grant.
Additional costs could have been claimed by the Board, including in-kind costs, if they had been needed.

Grant No. 05-5500-7110. There was a total of $50,000 reported as outlays under this $25,000 grant.
However, during the audit, the Board was unable to document any of the costs (including in-kind) incurred
under the grant. Therefore, we are questioning costs of $50,000, which could result in a potential refund of
$25,000.

Grant No. 06-4557-7069. There was a total of $16,000 reported as outlays under this $8,000 grant. We
were able to document $8,000 of expenditures under the grant but there was no additional documentation
provided for the remaining $8,000 claimed. Therefore, we are questioning costs of $8,000, which could
result in a refund of $4,000.


OTHER MATTERS
We found that the Board did not provide subrecipients with identification information such as the
Catalogue of Federal Domestic Assistance (CFDA) title or number in accordance with OMB Circular A-
133, Subpart C.

   The grantee must inform the subrecipient of Federal funds and identify the Federal grant number, CFDA title and
   number and Federal agency.

We found that the Board was submitting its FSRs and its FDRs late, anywhere between several days and
several months late.

   NEA’s General Terms states that a Final Report package including the Final Descriptive Report (FDR), the Financial
   Status Report (FSR), and any required work product(s) must be submitted no later than 90 days after the project
   period end date.



EXIT CONFERENCE
An exit conference was held with the Board’s Executive Director and Assistant Director of Administration
on August 21, 2008. They acknowledged the findings and recommendations, and indicated they were in
agreement on implementing the recommendations. On May 27, 2009, a subsequent discussion of the
recommendations was conducted with the Board’s Executive Director.




                                                         4
                                   RECOMMENDATIONS
We recommend that the Board:

1. Implement procedures to ensure that work papers are maintained to document the costs reported on the
   final Financial Status Reports and on the Final Descriptive Reports.

2. Provide additional documentation to satisfy the matching requirements under grant nos. 05-5500-7110
   and 06-4557-7069. Based on our subsequent review of the documentation provided, we will determine
   if any refund is due to the NEA. Without additional documentation, the potential refund is $29,000
   under the two grants.

3. Implement procedures to ensure that in-kind costs (contributions) are properly documented in
   accordance with OMB Circular A-102.

4. Implement procedures to ensure that subrecipients are informed of the CFDA titles and numbers, which
   are associated with their award.

5. Implement procedures to ensure that Final Report packages are submitted within the required 90 days
   after the period of support end date.




                                                    5
                                                                                                Appendix A

                                    WISCONSIN ARTS BOARD
                      SCHEDULE OF GRANTS SELECTED FOR AUDIT




      Grant                                               Reported
     Amount      Grant Number       Grant Period           Costs               Project Description


                                                                     To support coordination of a teacher
       $25,000 05-5500-7110        7/1/05 - 6/30/06   $       50,000 network & educational web site.

                                                                       To support the consortium project “It Is
                                                                       Never Too Late To Learn,” the Second
                                                                       Annual Conference on Arts, Curriculum
       $30,000 05-5500-7020        1/1/05 – 6/30/06   $       67,500   and Community.

                                                                       Purpose was to support partnership
      $595,400 05-6100-2020        7/1/05 - 9/30/06   $ 7,603,057      agreement activities.

                                                                       To support state participation in “Poetry
                                                                       Out Loud: National Recitation Contest
        $8,000 06-4557-7069        1/1/06 - 5/31/06   $       16,000   and state-level finals.”

                                                                   To support partnership agreement
      $638,300 06-6100-2010        7/1/06 – 6/30/07   $ 10,414,478 activities.

                                                                       To support continuation and expansion
       $35,000 04-5500-3061        7/1/04 - 3/31/06    $           *   of Wisconsin Folks.

                                                                       To support partnership agreement
      $616,400 04-6100-2008        7/1/04 – 9/30/05   $              * activities.


                                                                       To support partnership agreement
      $651,700 07-6100-2030        7/1/07 – 6/30/08       $          * activities.

                                                                       To support the Wisconsin Teachers of
                                                                       Local Culture coordinator position and
       $25,000 06-5500-7123        7/1/06 – 6/30/07       $          * related costs.

Awards for the nine grants totaled $2,624,800.

    * These grants were not selected for audit since time of audit was limited and also for one grant where
no costs were reported as of the audit date.
                                                      6
